              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Reconfiguration of the Kansas City
Plant




DOE/IG-0616                                 August 2003
                               Department of Energy
                                   Washington, DC 20585


                                   August 13, 2003



MEMORANDUM FOR T ~ E C R E T A R Y

FROM:                   &*  regor H. ne man
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on the Reconfiguration of the
                                                                                "


                          Kansas City Plant''


BACKGROUND

In 1994, the Department of Energy announced its intention to study options for
consolidating production operations throughout the complex. In response, the contractor
at the Kansas City Plant submitted a plan to significantly reduce the size of its operations.
In March 1997, the Department approved Kansas City's Stockpile Management
Restructuring Initiative (SMRI), currently estimated to cost $138 million. The
Department's approval was based on projected operational savings of $35.4 million per
year, generated by consolidating similar production processes and equipment, allowing
for a reduction in both the floor space and the workforce needed to achieve required
production levels. The Department began restructuring activities in September 1999 and
planned to complete the project by the end of September 2005.

As long time advocates of reducing the Department's footprint consistent with its
evolving mission, we initiated a review to determine if the Kansas City Plant's
restructuring initiative would achieve the intended results.

RESULTS OF AUDIT

We found that the SMRI will not reduce the floor space of the Kansas City Plant as intended.
Less than half of the planned 600,000 square feet of floor space will actually be transferred to the
General Services Administration; and, rather than being reduced, current staffing levels remain
the same as when the restructuring activities began. This occurred because the project was not
fully reevaluated when the underlying workload assumptions changed, including the assignment
of new missions to Kansas City. Furthermore, the Department did not make full use of project
management controls. In particular:

       The project execution plan was not consistent with the work being performed;
       Budget documents did not reflect the actual plan for the project; and,
       Work was included in the project that did not support the intent of the initiative.




                                  @    Printed wlth soy ink on recycled papet
                                            2

To date, the Department has spent $84 million and will not fully achieve the $35.4 million
annual projected cost savings, which was the basis for the project's approval. Since an additional
$54million is scheduled to be spent on this project, we believe that the Department should
reevaluate the viability of the SMFU.

In recent years, the Department has been reviewing opportunities for reducing the size of its
physical infrastructure. We believe that experiences at the Kansas City Plant may provide useful
lessons learned which can be utilized at other Departmental facilities.

MANAGEMENT REACTION

In meetings after the release of a draft of this report management expressed general
agreement with the recommendations, but had some concern about our conclusions.
Specifically, management believed that the SMRI project was still justified and would
achieve a projected $30.9 million per year savings, recouping the cost of the project in
less than five years beginning in FY 2006. Although management provided this revised
savings figure, it is based on workforce reductions that, in our judgment, were not
supported by available documentation. Management's summary comments are included
in their entirety as Appendix 2.

Attachment

cc:    Deputy Secretary
       Administrator, National Nuclear Security Administration
       Acting Associate Administrator for Management and Administration
       Director, Policy and Internal Controls Management, NA-66
RECONFIGURATION OF THE KANSAS CITY PLANT

TABLE OF
CONTENTS



               Results of Initiative

               Details of Finding .......................................................................     1

               Recommendations and Comments ...........................................                      3


               Appendix

               1 . Objective, Scope, and Methodology .....................................                   9

               2. Management Comments....................................................                   .I0
RECONFIGURATION OF THE KANSAS CITY PLANT
ResuIts of Initiative   The Stockpile Management Restructuring Initiative (SMRI) will not
                        reduce the floor space of the Kansas City Plant as intended. The initial
                        plan called for transferring 600,000 square feet of floor space, almost 20
                        percent of the occupied space, to the General Services Administration
                        (GSA). However, current project documents showed that the
                        Department of Energy (Department) would only vacate 402,000 square
                        feet, of which GSA will accept only 235,000 square feet, less than 8
                        percent of the occupied space.

                        The workforce may also not be reduced to the extent planned. As a
                        direct result of the initiative, the workforce was expected to be reduced
                        by 17 percent, or about 500 people. This reduction was in addition to
                        planned staffing reductions of almost 700 people for downsizing efforts
                        not related to the initiative, such as outsourcing. Our review found that,
                        between November 1997 and September 1999, the workforce had been
                        reduced by 183 people, 57 of which were due to outsourcing. The
                        January 2003 workforce level, however, was the same as it was when
                        the restructuring activities began in September 1999. Further,
                        management did not know if there would be any workforce reductions
                        during the remaining three years of the restructuring initiative.

                        During the exit conference, management indicated that it planned to
                        reduce the workforce by 60 people by Fiscal Year (FY) 2004.

Project Management      Overall, the Department did not make full use of available project
Controls                management controls. For example, the Project Execution Plan (PEP),
                        designed to act as the roadmap for the project, was not consistent with
                        the work being performed. The PEP should define how a project will
                        be executed and serve as a key management tool. In this case, the
                        summary and working levels of the PEP for the project did not match.
                        The PEP summary stated that the objective of the project was to reduce
                        the physical size of the plant by 600,000 square feet, whereas the
                        detailed work plan only included activities to vacate 533,000 square feet
                        of space. While the detailed work plan was updated in December 2001
                        to reflect the plan to vacate a total of 458,000 square feet of space, it did
                        not specify that only 235,000 square feet of that space would be
                        returned to GSA. In March 2003, the Department updated the detailed
                        work plan again to remove an additional 56,000 square feet of work and
                        to acknowledge that almost half of the remaining space to be vacated
                        would be retained by the Department. However, the original square
                        footage error has still not been corrected.

                        Another management control, the project data sheet, used to keep
                        Congress informed as part of the budget process, did not fully reflect
                        the actual plan for the project. Starting in FY 2001, the project data
                        sheet reported that over 600,000 square feet of space would be vacated.
Page 1                                                                          Details of Finding
         In FY 2003, the Department reported that the project would return
         780,000 square feet of floor space to GSA, much more than both the
         original 600,000 and the actual 235,000 square feet of floor space being
         returned. The Department did not indicate that, in reality, less space
         would be vacated and that almost half of the vacated space will
         continue to be maintained by the Department. Since GSA informed the
         Department, in February 1999, prior to the execution of the project, that
         it would not accept any Department-owned space unless another tenant
         could be identified, it was unclear why the project data sheet was
         inaccurate.

         The project also included work that did not meet the intent of the
         initiative. For example, the Department spent $3.1 million preparing to
         relocate one production activity as part of reducing the plant's footprint.
         However, the space vacated after moving this activity will remain
         unoccupied and will not be transferred to GSA as originally planned.
         Also, although the move appears to offer little future cost savings, the
         Department plans to spend an additional $3.3 million to purchase new
         furnaces and move the activity to the new location and $1.25 million to
         refurbish the vacated space. In another case, the Department spent $1.9
         million preparing new office space while other office space remained
         vacant. The Department plans to spend an additional $500,000 to
         continue office rearrangement activities even though none of the
         vacated space will be transferred to GSA.

         Further enhancements, above and beyond what was necessary for
         reconfiguration and downsizing of the plant, were made. For example,
         $6.4 million was included in the initiative to refurbish clean rooms
         within the electromechanical assembly department. However, during
         the conceptual design phase, both the local site office and the contractor
         had recommended that that work not be included in the project since it
         did not meet the cost savings criteria of the initiative. In addition, the
         Department tentatively agreed, in February 2003, to reallocate $4.8
         million of project funds for the construction of another clean room.
         Similarly, in December 2001, the Department added $284,000 to the
         project for the purchase and installation of a new guardhouse that was
         needed because of changes in security requirements.

         When the underlying assumptions for the initiative changed,
         management did not fully reevaluate the project. For instance, the
         original plan assumed a workload of 300 units with no new programs or
         process technologies. Since then, three new stockpile life extension
         programs have been added and the capacity for the gas transfer system
         in weapons is also expected to be expanded. In addition, it was
         assumed that the workload would require 176,000 standard labor hours

Page 2                                                          Details of Finding
                       on a single shift. However, in FY 2002, the Kansas City Plant was
                       operating at 235,000 standard labor hours on multiple shifts. Despite
                       the fact that almost none of the original assumptions remain valid, the
                       Department has not performed a comprehensive review of the project to
                       ensure that its continuation is still justified based on the current
                       situation.

Cost Savings Not       As a result, the Department may not fully achieve the projected cost
Achieved               savings, which was the basis for the project's approval. Specifically, we
                       concluded that, since the floor space and workforce levels will not be
                       reduced to the extent planned, little, if any, of the anticipated $35.4
                       million per year cost savings will be realized. In addition, the
                       Department plans to invest up to another $54 million on the project, of
                       which about $22 million will be used for activities that offer little cost
                       saving potential.


RECOMMENDATIONS        We recommend that the Deputy Administrator for Defense Programs:

                              1. Determine if the SMRI project is still justified.

                       Based on the results of Recommendation 1, we also recommend that the
                       Manager for the Kansas City Site Office:

                              2. Reevaluate the remaining work to ensure that it meets the
                                 intent of the initiative, and discontinue any work that will
                                 not support the intended cost savings;

                              3. Revise the PEP to reflect the current status of the project;

                              4. Revise the Congressional project data sheet to reflect the
                                 current status of the project; and,

                              5. Establish adequate internal controls to ensure that hture
                                 Congressional project data sheets for all projects performed
                                 at the Kansas City Plant are accurate.


MANAGEMENT REACTION    Management's written comments did not specifically state whether they
AND AUDITOR COMMENTS   agreed or disagreed with the findings and recommendations. However,
                       during subsequent discussions with the SMRI project manager of the
                       Kansas City Site Office to clarify management's position, management
                       indicated that they generally agreed with the recommendations, but
                       expressed concern with some of the data in the finding. Specifically,


Page 3                                                   Recommendations and Comments
         management believed that the avoidable cost amounts were overstated
         since they were derived from the remaining baseline cost for the
         project, which included committed funds and contingency. The $54
         million remaining baseline includes $16.6 million in committed funds
         and about $14 million in contingency. In addition, management
         indicated that the square footage amounts used in the report were
         slightly inaccurate. For example, management stated that 240,000
         square feet was to be transferred to GSA, rather than the 235,000 square
         feet quoted in the report.

         The Office of Inspector General recognizes that the cost amounts
         included in the report may contain committed funds and contingency.
         Since certain committed funds and contingency were not broken down
         into the various project elements, the cost amounts included in the
         report could not be adjusted to reflect these amounts. Thus, the
         avoidable costs may be less than the baseline plan for certain project
         elements. Also, due to discrepancies in the square footage amounts
         listed in various project documents, we requested that the Department's
         Kansas City Site Office provide non-rounded square footage amounts
         for all of the individual areas affected by the project. The square
         footage amounts used in the report were represented by the
         Department's SMRI Project Manager as the most accurate amounts
         available.

         Management's specific comments, followed by our responses, are as
         follows:

         Recommendation 1
                Determine if the SMRIproject is still just$ed.

         Management Comment: Management agreed with the
         recommendation, stating that they rejustified the project with the
         approval of the most recent baseline change proposal. According to
         management, the approval of the change proposal reinforced
         management's desire to meet the intent of the reconfiguration
         initiative -cost savings from a reduced footprint. While management
         agreed that they would not fully achieve the original projected savings,
         they would still recoup the cost of the project in less than five years
         with a projected $30.9 million annual savings. These savings are
         expected to be achieved either through direct workforce reductions or
         cost avoidance associated with not having to hire additional workforce
         to support increased mission workload as a result of efficiencies gained
         through process-based manufacturing. Management took issue with the
         report's assumption that workforce reductions should be visible during
         the execution of the project. In addition, management stated that the
Page 4                                    Recommendations and Comments
         report did not recognize that critical skills hiring prior to January 2003
         had added 159 employees to the workforce. Management felt that the
         increase should be factored out of the headcount analysis that would
         otherwise have been considered a headcount reduction. Further,
         management believed that keeping the headcount at 1999 levels could
         be viewed as a major success, considering the critical skills headcount
         increase, the 35 percent workload increase, and addition of new Life
         Extension Programs.

         Auditor Response: While management professed agreement with the
         recommendation, we believe that the approval of a baseline change
         does not constitute sufficient rejustification of the SMRI project. A
         comprehensive review needs to be conducted, which includes validation
         that workforce reductions or the avoidance of workforce increases will
         result from the continuation of the SMRI project. As to the projected
         $30.9 million annual savings, we do not believe that the documentation
         provided supports management's claims of cost savings. Without
         further documentation, the estimate used as the basis for the projected
         cost savings could not be evaluated for reasonableness. Specifically,
         neither the Department, nor the contractor, could explain how the
         anticipated workforce reduction amount was calculated or identify the
         departments that these reductions would come from. In fact, no detail
         could be provided beyond grouping the reductions into general
         categories, such as direct labor. Accordingly, without an analysis that
         shows where reductions could be taken or a plan for when these
         reductions will occur, it seems very unlikely that the SMRI project
         would prompt any workforce reductions or prevent any workforce
         increases.

         Further, management indicated that our analysis should include
         workforce reductions that occurred several years before any work on
         the project began; and, at the same time, asserted that further reductions
         could not be expected until after the project was complete. However, it
         seems implausible that reductions would occur before and after, but not
         during the project, especially in light of the fact that many elements of
         the project are complete or near completion. It should also be noted
         that by acknowledging that 159 of the people that departed represented
         critical skills that had to be replaced, management has also
         acknowledged that these reductions could not have been tied to the
         SMRI project. Finally, management's comments seem to imply that
         further workforce reductions are planned. During the audit, however,
         the contractor's human resource manager indicated on several occasions
         that, even after analyzing the workforce for several months, he could
         not predict whether the workforce levels would be reduced, increased,


Page 5                                      Recommendations and Comments
         or remain constant over the next three years. The manager also stated
         that it would likely be next fiscal year before this information would be
         available.

         Recommendation 2
                Reevaluate the remaining work to ensure that it meets the intent
                of the initiative, and discontinue any work that will not support
                the intended cost savings.

         Management Comment: Management agreed that reevaluation of the
         remaining work was an important part of project management and
         stated that they were continuously reevaluating as part of their normal
         oversight. For example, in March 2003, management decided not to
         vacate 56,000 square feet of office space as originally planned since the
         space would not be transferred to GSA and was needed to support the
         increased workload. Management reported that the balance of the work
         was necessary and integral to the execution of the project. They stated
         that caution needed to be exercised in taking any one element of the
         project and evaluating its cost saving merits independent of the project
         as a whole and independent of related program objectives.
         Management pointed out that the report did not recognize that capacity
         studies are performed annually and continue to show that the post-
         SMRI manufacturing areas are still sized to meet the workload
         associated with these new programs and technologies. Accordingly,
         management believed it was still in the best interest of the Department
         to vacate the space consistent with the other initiatives of SMRI to
         streamline production and support operations for long-term efficiencies.
         Management also stated that both the Heat Treat and Office
         Rearrangement projects (two projects cited on page 2 as not meeting the
         intent of the initiative) were begun prior to the GSA decision in
         September 2002 to not assume control of Department-owned space.
         They stated that allowing the Heat Treat area to remain in its current
         location would negate the possibility of ever returning this floor space
         to GSA in the future. They reported that the Heat Treat area was also
         being downsized to increase operational efficiencies and the
         construction project to prepare the area for Heat Treat relocation had
         been completed. Finally, management stated that the office
         rearrangement work would consolidate offices within the main office
         area.

         Auditor Response: Project documents clearly state that the SMRI
         project "is justified based on operational savings from reconfiguring the
         [plant]." The project was designed to streamline operations in order to
         achieve this cost savings goal. Accordingly, management should be
         able to make a clear link between any work included in the project and

Page 6                                     Recommendations and Comments
         the project's goal. Neither the Department, nor the contractor, have
         demonstrated how the work questioned will streamline operations.
         Project documents describing the work in the Heat Treat and Office
         Rearrangement areas indicate that much of the work involved moving
         people and equipment from one area of the building to another area of
         the building to facilitate the transfer of the vacated space to GSA, not to
         streamline operations. The operating efficiency of having vacant areas
         on the west side of the building versus vacant areas on any other side of
         the building was not apparent. In addition, the Department knew prior
         to the start of the project that it was likely that GSA would not accept
         the transfer of Department-owned space. Despite that fact, the
         Department did not adjust plans for the Department-owned space until
         three years into the project.

         Recommendation 3
                Revise the PEP to reJlect the current status of the project.

         Management Comment: Management's written comments indicated
         that all changes to the PEP have been documented and approved
         through the baseline change proposal process, which incorporates these
         changes as an appendix to the PEP and by notation to the change
         control sheet in the PEP. However, management agreed, in subsequent
         discussions, to correct the original square footage error contained in the
         PEP.

         Auditor Response: We consider management's planned actions
         responsive to the recommendations.

         Recommendation 4
                Revise the Congressionalproject sheet to reflect the current
                status of the project.

         Management Comment: Management's written comments stated that
         the FY 2004 project data sheet was revised during the audit to reflect
         the correct footprint reduction estimate and that all other portions of the
         data sheet reflect accurate information. Management agreed, in
         subsequent discussions, to revise the FY 2005 data sheet to reflect the
         removal of additional work in March 2003 and to indicate the amount
         of space to be transferred to GSA.

         Auditor Response: We consider management's planned actions
         responsive to the recommendation.



Page 7                                      Recommendations and Comments
         Recommendation 5
                Establish adequate internal controls to ensure that future
                Congressional project data sheets for all projects performed at
                the Kansas City Plant are accurate.

         Management Comment: Management agreed with the intent of the
         recommendation that the internal control structure must ensure accurate
         data sheets. However, management believed that this control structure
         was already incorporated into the Department's Planning, Programming,
         Budgeting and Evaluation methodology.

         Auditor Response: Management's current internal control structure has
         proven to be insufficient to ensure accurate data sheets are produced,
         since the process allowed incorrect information to be included on SMRI
         project data sheets since FY 2001. Therefore, improvements to the
         internal controls, in our judgment, are still needed.




Page 8                                    Recommendations and Comments
Appendix 1
OBJECTIVE     The objective of the audit was to determine if the Kansas City
              Plant's restructuring initiative would achieve the intended results.


SCOPE         The audit was performed from October 2002 to February 2003 at
              the Kansas City Plant, in Kansas City, Missouri. The audit included
              a review of project planning documents and cost savings analyses.


METHODOLOGY   To accomplish the audit objective, we:

                0   Reviewed the conceptual design report and project execution
                    plan;

                0   Evaluated changes to the project since the conceptual design
                    report;

                0   Reviewed the cost through April 2003 associated with each
                    of the project's work elements;

                0   Toured the affected areas of the Kansas City Plant;

                0   Reviewed agreements with GSA; and,

                0   Interviewed personnel from the Kansas City Plant.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations
              to the extent necessary to satisfy the audit objective. Accordingly,
              the audit included a review of the project management activities
              associated with the reconfiguration. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. As part
              of our review, we also evaluated the Department's implementation
              of the Government Performance and Results Act of 1993. We
              found that the National Nuclear Security Administration (NNSA)
              established specific performance objectives related to the SMRI
              project. We conducted a limited reliability assessment of computer-
              processed data used to support workforce reductions and found the
              data to be sufficiently reliable.

              We held an exit conference with NNSA on June 30,2003.



Page 9                                      Objective, Scope, and Methodology
Amendix 2


                                   Department of Energy
                             National Nuclear Security Administration
                                      Washington, DC 20505




        MEMORANDUM FOR                 Frederick D. Doggett
                                       Deputy Assistant Inspector General
                                         for Audit Senices

        Is'KOM:                        Michael C . Kane
                                       Acting Associate ,4dmil(;strator
                                         for Management and Administration

        SUBJECT:                       Comments to Draft Report on the Kansas City
                                       Plant's R econ fi guration


        X N S 4 has rexiewed the Inspector General's (IG's) draft report on the
        reconfiguration of the Kansas City Plant. We appreciate the opportunity to ha\e
        revicwed this report. We understand the 1G believes that the Kansas City Plant
        will not realize the reduction in floor space or work force as onginally planned
        and that thc initiative is not achieving its intended results. While we understand
        the IG's premise, NNSA disagrees with the conclusion that we need to reevaluate
        the Kansas City initiative because of assumptions or that we need to determine if'
        the project I S still justified.

        The oiiginal plant foot print reduction of.600.000 sqft will not be rcalized. The
        reduction v i l l only be 409,000 sqft at the same time that workloads have
        incrcascd. Staffing has remained constant at 1099 levels -- had the Lvorkload not
        increased. Kansas City Plant would have already reali7ed a staffing reduction --
        and reductions will not begin to be realired at least until Fiscal Year 2004 The
        anticipated cost savings will be '3145.23 million rather than the original
        expectation of $152.22 million. The anticipated return on iiivestment w i l l begin
        at the end of Fiscal Year 3006. The Kansas City Plant reconfiguration initiative
        will still realize the utilization of less space, have a greater work load, and still
        havc an estimated return of investment in excess ofS100 million.

        I have attached specific comments that may clarify issues justifiably raised by the
        IG. I believe that these comments explain the concerns about space being
        returned to the General Services Administration and other management actions
        related to this projcct.
Appendix 2 (continued)


          12c1,aing t c j the rccoiiimciidatic,tis i n t h e dial! rcl)or[. mlict1 ttu.’ I k p u t ?
          r\dministrLitor for 1)efinsc I’rograuiis appro\ i d 1 3 : i ~ tl i i i C hangc I’ropoial - 2. by
          his \igria[urc. he determined that the recontigLiration i n i t i a t i k e continues 10 be
          iustiti?ctl I hc Ihseline Change I’roposal appro\ :I1 :ilw rcciilorces management’s
          tlevre to mect the intcnt ot’tlie reconfiguration inltiatii e cost sa\ ingx t‘roin a
          r~‘dLiccitfootprint. ‘lliis I3asclinc (‘hange Pi c l p o d            s u t w q u c n t l > incorptmted
          into the Project Execution Plan ( P E P ):is :in rippenciix to tlic plan and b> notation
          ( o the ‘-ChangeC ontrol” sheet in the acriial plaii b‘e hclielc this to bc thc intent
          ot the I<;*> recoinmcndation rather than a11intent to republish thc plan bbith each
          change proposal. The ICi-s recctmmcndation to update the Project Data Sheet t o
          r,!flect the current status 0 1 the project \<as :iccompli4ied during the rcvicbb 7 he
          iipdiitc to the data sheet now rcflccts the correct foot pi int reduction estiinatc. i n
          ~clua1cfeet All othcr portions of the daia 4ieer reflect iiccurale i~if’orrriatioii.
          \\St\ agiees mith the IG’s intent that the intcriial control5* structure must be
          >iicli thdt it ensures nccurac) for all aspect\ o f a project to include accurate data
          slierts Pait of thi5 control structure is incctrporatcd into S N S 2 ’ s Plaiining.
          Pi ogianming, Budgeting and 1 Laluation (1’1’131 ,) methodology (Congressional
          I’roiect 1)atn Sheets are captured within \ a r i o u i ‘ispects of‘the i’Pl31; processes




          A t tach mciit

          cc       1)r t3tckner, Dcput) Adniinisti-:i;or 1.01.1)cIL.nse I’rograiiis. UA-1 0
                   Steve I aylor, Acting Manager. Kansis City Plant Site O f i c e
                   [>axe Marks. Field Chief Financial Officei. SbcCei~’1       c‘




Page 11                                                                                          Management Comments
                                                                              IG Report No.: DOE/IG-06 16

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer hendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe. gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
